1a
APPENDIX A
Court of Appeal, First Appellate District, Division
Five No. A156450
S266718
IN THE SUPREME COURT OF CALIFORNIA
En Banc
_________________________________________________
JACOB RIMLER et al., Plaintiffs and Respondents,
v.
POSTMATES INC., Defendant and Appellant.
_________________________________________________
The petition for review is denied.

CANTIL-SAKAUYE
Chief Justice
[Filed February 24, 2021]

2a
APPENDIX B
Filed 12/9/20
NOT TO BE PUBLISHED IN OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a) prohibits courts and parties from citing or relying on
opinions not certified for publication or ordered published, except as specified by rule 8.1115(b). This
opinion has not been certified for publication or ordered published for purposes of rule 8.1115.
IN THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FIVE
________________________
JACOB RIMLER, ET AL.,
Plaintiffs and Respondents,
v.
POSTMATES INC.,
Defendant and Appellant
________________________
A156450
(San Francisco County Super. Ct. No. CGC-18567868)
________________________
Postmates Inc. (Postmates) appeals the trial
court’s order denying its petition to compel arbitration
of representative claims under the Private Attorney

3a
General Act of 2004 (PAGA) (Lab. Code, § 2699 et
seq.). Postmates concedes our Supreme Court held in
Iskanian v. CLS Transportation Los Angeles, LLC
(2014) 59 Cal.4th 348 (Iskanian) that PAGA waivers
are unenforceable, but argues subsequent United
States Supreme Court cases have abrogated Iskanian.
We join the numerous California Court of Appeal decisions that have uniformly rejected this argument
and affirm the trial court’s order.
BACKGROUND
Jacob Rimler and Giovanni Jones (Plaintiffs)
worked as couriers for Postmates. Plaintiffs accepted
Postmates’ courier agreement, which includes an arbitration agreement and a waiver of the “right to have
any dispute or claim brought, heard or arbitrated as a
representative action, or to participate in any representative action, and an arbitrator shall not have any
authority to arbitrate a representative action.” Couriers may opt out of these provisions by submitting an
opt out form within 30 days of accepting the courier
agreement, but Plaintiffs did not do so.
Plaintiffs sued Postmates, seeking PAGA penalties for alleged Labor Code violations. Postmates
filed a petition to compel arbitration, which the trial
court denied. This appeal followed. (Civ. Proc. Code,
§ 1294, subd. (a).)
DISCUSSION1
PAGA “authorizes an employee to bring an action for civil penalties on behalf of the state against
1

Plaintiffs repeatedly cite unpublished Court of Appeal decisions, in violation of California Rules of Court, rule 8.1115(a). We
disregard these citations and admonish counsel to comply with
the Rules of Court in the future.

4a
his or her employer for Labor Code violations committed against the employee and fellow employees, with
most of the proceeds of that litigation going to the
state.” (Iskanian, supra, 59 Cal.4th at p. 360.) Iskanian concluded that a predispute PAGA waiver “is
contrary to public policy and thus unenforceable under state law. [Citation.] The court then determined
this conclusion was not preempted by the FAA [Federal Arbitration Act] because it found the FAA was intended to govern the resolution of ‘private disputes,
whereas a PAGA action is a dispute between an employer and the state Agency.’ [Citation.] . . . The court
stressed the nature of a PAGA claim as ‘“‘fundamentally a law enforcement action designed to protect the
public and not to benefit private parties’”’ [citation]
and that ‘“an aggrieved employee’s action under the
[PAGA] functions as a substitute for an action brought
by the government itself’’’ [citation].” (Correia v. NB
Baker Electric, Inc. (2019) 32 Cal.App.5th 602, 616
(Correia).)
After Iskanian, the United States Supreme
Court decided Epic Systems Corp. v. Lewis (2018) 584
U.S. ___ [138 S.Ct. 1612] (Epic). “Although most of
the Epic opinion concerned an analysis of the [National Labor Relations Act] as it relates to the FAA,
the court also strongly reiterated the settled principles regarding the breadth of FAA preemption, and
made clear that the FAA requires courts ‘“rigorously”
to “enforce arbitration agreements according to their
terms, including terms that specify with whom the
parties choose to arbitrate their disputes and the rules
under which that arbitration will be conducted.”’”
(Correia, supra, 32 Cal.App.5th at p. 618.)
In Correia, as here, the employer argued Iskanian had been abrogated by Epic. (Correia, supra,

5a
32 Cal.App.5th at p. 619.) Correia began by noting
that, “[o]n federal questions, intermediate appellate
courts in California must follow the decisions of the
California Supreme Court, unless the United States
Supreme Court has decided the same question differently.” (Ibid.) After discussing Iskanian and Epic,
Correia rejected the employer’s argument: “Because
the California Supreme Court found a PAGA claim involved a dispute not governed by the FAA, and the
waiver would have precluded the PAGA action in any
forum, it held its PAGA-waiver unenforceability determination was not preempted. Epic did not reach
the issue regarding whether a governmental claim of
this nature is governed by the FAA, or consider the
implications of a complete ban on a state law enforcement action. Because Epic did not overrule Iskanian’s
holding, we remain bound by the California Supreme
Court’s decision.” (Correia, supra, 32 Cal.App.5th at
p. 620.)
At least four other Court of Appeal decisions
have reached the same conclusion. (Collie v. The Icee
Co. (2020) 52 Cal.App.5th 477, 480 [“We ... join Correia . . . in holding that Epic . . . does not undermine
the reasoning of Iskanian.”]; Zakaryan v. The Men’s
Wearhouse, Inc. (2019) 33 Cal.App.5th 659, 671 [“Epic
. . . did not overrule Iskanian”], disapproved on another ground in ZB, N.A. v. Superior Court (2019) 8
Cal.5th 175, 196, fn. 8; Provost v. YourMechanic, Inc.
(2020) 55 Cal.App.5th 982, 997 [“We reaffirm here our
analysis and decision in Correia that Epic did not
overrule Iskanian.”]; Olson v. Lyft, Inc. (2020) 56
Cal.App.5th 862, 865 [“we reject Lyft’s position based

6a
on Correia”].) We do as well, for the reasons amply
explained in Correia and the other decisions.2
Postmates attempts to distinguish these decisions on the ground that Plaintiffs could have opted
out of the PAGA waiver. “‘Iskanian’s underlying public policy rationale—that a PAGA waiver circumvents
the Legislature’s intent to empower employees to enforce the Labor Code as agency representatives and
harms the state’s interest in enforcing the Labor
Code—does not turn on how the employer and employee entered into the agreement, or the mandatory
or voluntary nature of the employee’s initial consent
to the agreement.’” (Williams v. Superior Court (2015)
237 Cal.App.4th 642, 648; accord, Securitas Security
Services USA, Inc. v. Superior Court (2015) 234
Cal.App.4th 1109, 1121–1123.) Accordingly, Plaintiffs’ ability to opt out does not impact our analysis.
DISPOSITION
The order is affirmed.
awarded their costs on appeal.

Respondents are

SIMONS, Acting P.J.
We concur.
NEEDHAM, J.
2

Postmates points to two other United States Supreme Court
cases, but these cases, like Epic, do not reach the issue decided
in Iskanian. (Henry Schein, Inc. v. Archer and White Sales, Inc.
(2019) 586 U.S. ___ [139 S.Ct. 524] [an agreement to delegate
arbitrability to an arbitrator must be enforced]; Lamps Plus, Inc.
v. Varela (2019) 587 U.S. ___ [139 S.Ct. 1407] [ambiguity in arbitration agreement does not create inference that parties agreed
to classwide arbitration].)

7a

REARDON, J.*

(A156450)
____________________
* Judge of the Alameda County Superior Court, assigned by the Chief Justice pursuant to article VI, section 6 of the California Constitution.

8a
APPENDIX C
SUPERIOR COURT OF CALIFORNIA
COUNTY OF SAN FRANCISCO
DEPARTMENT 305
________________________
JACOB RIMLER and GIOVANNI JONES,
Plaintiffs,
v.
POSTMATES, INC.,
Defendant.
________________________
Case No. CGC-18-567868
ORDER DENYING DEFENDANT POSTMATES
INC.’S PETITION TO COMPEL ARBITRATION
AND STAY LITIGATION
________________________
Defendant Postmates Inc. (“Defendant”) petitioned the Court for an order to compel arbitration of
any and all claims asserted by Plaintiffs Jacob Rimler
and Giovanni Jones (collectively, “Plaintiffs”) and to
stay litigation pending arbitration. The motion came
on for hearing on December 13, 2018, and appearances are as noted in the record. Having duly considered the matter, and for the reasons stated below, the
Court denies the petition to compel arbitration and
denies the request to stay litigation.
I.

RELEVANT FACTS

Defendant Postmates Inc. is a San Franciscobased technology company that connects customers in

9a
need of delivery services with couriers using an online
platform which can be accessed through Defendant’s
website or a mobile phone application (“app”). Declaration of Ashley Campbell (“Campbell Decl.”) ¶ 2;
First Amended Complaint (“FAC”) ¶ 9. When customers place an order for delivery from local merchants
through Defendant’s online platforms, nearby couriers receive a notification and can select whether to accept the offer to complete the delivery. Campbell Decl.
¶ 2. In this putative class action, Plaintiffs, who are
“couriers” for Defendant, assert one cause of action
pursuant to the Private Attorney General Act, California Labor Code §§ 2698, et seq. (“PAGA”), alleging
that Defendant violated the Labor Code by (1) willfully misclassifying its employees (Labor Code
§ 226.8); (2) failing to reimburse its employees for all
reasonably necessary expenditures incurred by drivers in discharging their duties (Labor Code § 2802);
(3) failing to pay minimum wage (Labor Code §§ 1194,
1197); and (4) failing to pay appropriate overtime premiums (Labor Code §§ 510, 554, 1194, 1198). See
First Amended Complaint, filed July 11, 2018.
Defendant provides its couriers with a “Fleet
Agreement,” which couriers must accept before they
may use the online platform to receive delivery opportunities. Campbell Decl. ¶ 4. The first page of the
Fleet Agreement includes the following language in
all-caps and bold font:
IMPORTANT: PLEASE NOTE THAT TO
USE THE POSTMATES PLATFORM AS A
CONTRACTOR, YOU MUST AGREE TO
THE TERMS AND CONDITIONS SET
FORTH BELOW. PLEASE REVIEW THE
MUTUAL ARBITRATION PROVISION SET

10a
FORTH BELOW IN SECTION 11 CAREFULLY, AS IT WILL REQUIRE YOU TO RESOLVE DISPUTES WITH POSTMATES ON
AN INDIVIDUAL BASIS, EXCEPT AS OTHERWISE PROVIDED IN SECTION 11,
THROUGH FINAL AND BINDING ARBITRATION UNLESS YOU CHOOSE TO OPT
OUT OF THE MUTUAL ARBITRATION
PROVISION. BY DIGITALLY SIGNING
THIS AGREEMENT, YOU WILL BE ACKNOWLEDGING THAT YOU HAVE READ
AND UNDERSTOOD ALL OF THE TERMS
OF THIS AGREEMENT (INCLUDING THE
MUTUAL ARBITRATION PROVISION IN
SECTION 11) AND HAVE TAKEN TIME TO
CONSIDER THE CONSEQUENCES OF
THIS IMPORTANT BUSINESS DECISION.
IF YOU DO NOT WISH TO BE SUBJECT TO
ARBITRATION, YOU MAY OPT OUT OF
THE MUTUAL ARBITRATION PROVISION
BY FOLLOWING THE INSTRUCTIONS
PROVIDED IN SECTION 11 BELOW.
Id., Ex. C.
Section 11 of the Fleet Agreement is titled “Mutual Arbitration Provision” and provides as follows:
11A. Arbitration of Disputes. Postmates and
Contractor mutually agree to resolve any disputes between them exclusively through final
and binding arbitration instead of filing a lawsuit in court. Postmates and Contractor expressly agree that this Mutual Arbitration
Provision is governed exclusively by the Federal Arbitration Act (9 U.S.C. §§ 1-16) (“FAA”)
and shall apply to any and all claims between
the Parties, including but not limited to those

11a
arising out of or relating to this Agreement,
the Contractor’s classification as an independent Contractor, Contractor’s provision of
services under this Agreement, the delivery
fees received by Contractor for performing Deliveries, [etc.] . . . The parties expressly agree
that this Agreement shall be governed by the
FAA even in the event Contractor and/or Postmates are otherwise exempted from the FAA.
Any disputes in this regard shall be resolved
exclusively by an arbitrator. In the event, but
only in the event, the arbitrator determined
the FAA does not apply, the state law governing arbitration agreements in the state in
which the Contractor performs services shall
apply.
Campbell Decl., Ex. C at 9; Ex. D at 10. The Fleet
Agreement also contains a delegation clause which
provides that disputes between the parties relating to
the interpretation, applicability, enforceability and
formation of the Fleet Agreement are to be exclusively
resolved by an arbitrator. Id. However, the Fleet
Agreement expressly provides that the delegation
clause does not apply to the Class Action Waiver and
Representative Action Waiver. Id. Those waivers
state as follows:
CLASS
ACTION
WAIVER—PLEASE
READ. Postmates and Contractor mutually
agree that any and all disputes or claims between the parties will be resolved in individual arbitration. The Parties further agree
that by entering into this Agreement, they
waive their right to have any dispute or claim
brought, heard or arbitrated as a class and/or
collective action, or to participate in any class

12a
and/or collective action, and an arbitrator
shall not have any authority to hear or arbitrate any class and/or collective action (“Class
Action Waiver”).
REPRESENTATIVE ACTION WAIVER—
PLEASE READ. Postmates and Contractor
mutually agree that any and all disputes or
claims between the parties will be resolved in
individual arbitration. The Parties further
agree that by entering into this Agreement,
they waive their right to have any dispute or
claim brought, heard or arbitrated as a representative action, or to participate in any representative action, and an arbitrator shall not
have any authority to arbitrate a representative action (“Representative Action Waiver’’).
Id., Ex. C at 10; Ex. D at 11. The Fleet Agreement
provides that disputes regarding the enforceability of
the class action and representative action waivers are
to be resolved by the court, not an arbitrator. Id. Finally, the Fleet Agreement provides that arbitration
is not a mandatory condition of contractors’ relationship with Postmates, and that contractors may opt out
of the Mutual Arbitration Provision within 30 days of
signing the Fleet Agreement. Id., Ex. C at 12-13; Ex.
D at 12-13.
According to Defendant’s records, Plaintiffs accepted the terms of the Fleet Agreement. Id. ¶¶ 6-7.
Although Plaintiffs attempted to opt out of the Mutual
Arbitration Provision in May 2018, their attempted
opt-outs were not effective because they were not submitted within 30 days of accepting the Fleet Agreement. Id. ¶¶ 6-9, 13.

13a
Defendant now moves to compel Plaintiffs’
PAGA claims to arbitration and to stay all proceedings pending completion of arbitration.
II.

LEGAL STANDARD

A party seeking to compel arbitration must first
prove the existence of an enforceable agreement containing a provision mandating arbitration of the parties’ dispute. See Cione v. Foresters Equity Services,
Inc. (1997) 58 Cal.App.4th 625, 634. State law applies
in determining whether there is a contract. Id. Once
the existence of a valid arbitration agreement is established, the “arbitration agreement[] should be liberally interpreted, and arbitration should be ordered
unless the agreement clearly does not apply to the dispute in question.” Vianna v. Doctors’ Management Co.
(1994) 27 Cal.App.4th 1186, 1189 (internal citation
omitted). “Doubts as to whether an arbitration clause
applies to a particular dispute are to be resolved in
favor of sending the parties to arbitration.” Ibid.
III. ANALYSIS
For the reasons set forth below, the Court denies the petition to compel arbitration and denies the
request to stay the action.
A.

There is a Valid Arbitration Agreement
Between Defendant and Plaintiffs.

Plaintiffs do not present any arguments regarding the validity of the arbitration agreement between
Defendant and Plaintiffs, nor do they dispute the validity of the arbitration agreement. See Plaintiffs’ Response to Defendant’s Petition to Compel Arbitration
(“Response”). Accordingly, the Court that a valid arbitration agreement exists between Defendant and
Plaintiffs.

14a
B.

Plaintiffs’ PAGA Claims Are Not Subject to Arbitration Under Epic Systems
or Esparza.

Defendant argues that this Court should enforce the representative action waiver contained in
the Fleet Agreement and compel Plaintiffs’ claims for
civil penalties under PAGA to arbitration pursuant to
Epic Systems Corp. v. Lewis (2013) 138 S.Ct. 1612
(“Epic Systems”). Reply at 4-6. The Court does not
find that Epic Systems compels Plaintiffs to arbitrate
their PAGA claims. The U.S. Supreme Court in Epic
Systems addressed only the question of whether class
or collective action waivers were enforceable under
the FAA. The U.S. Supreme Court did not address the
enforceability of waivers of representative actions,
such as those brought under PAGA. Accordingly, representative action waivers remain unenforceable under Iskanian v. CLS Transportation Los Angeles, LLC
(2014) 59 Cal.4th 348 (“Iskanian”). Here, Plaintiffs’
single cause of action is asserted for civil penalties under PAGA. Therefore, Plaintiffs’ PAGA claims are not
subject to arbitration.
The Court agrees with Defendant that pursuant to Esparza v. KS Industries, L.P. (2017) 13
Cal.App.5th 1228, 1244-1246 (“Esparza”), Plaintiffs’
PAGA claims for statutory damages, also referred to
as victim-specific relief, are not subject to the rule of
nonarbitrability adopted in Iskanian and are therefore subject to individual arbitration. As the court in
Esparza explained, because an award to recover, for
example, underpaid wages under Labor Code section
558 is paid completely to the affected employee, and
not to the state, such claims retain their private nature and continue to be covered by the FAA. Id. However, at the hearing, Plaintiffs unequivocally waived

15a
their rights to pursue any statutory damages and now
seek to recover only civil penalties under PAGA. The
Court finds that Plaintiffs have clearly relinquished
their right to pursue any statutory damages under
PAGA. See id at 1247.
Accordingly, no portion of Plaintiffs’ PAGA
claims should be compelled to arbitration under Esparza. Id.
Defendant further argues that if Plaintiffs
waive their right to pursue statutory damages, “they
will no longer be ‘aggrieved employees’ within the
meaning of PAGA” and will lack standing to assert a
PAGA claim. Reply at 8. The Court disagrees. The
fact that Plaintiffs waive their right to seek specific
relief does not affect their standing to assert a representative action under PAGA.
C.

There Is No Basis to Stay Plaintiffs’ PAGA
Claims.

Because no claims are being sent to arbitration,
there is no basis for a stay. Accordingly, Defendant’s
request to stay the action is denied.
IV.

CONCLUSION

For the foregoing reasons, the Court denies the
petition to compel arbitration and denies the request
to stay the action.
IT IS SO ORDERED.

16a
Dated: December 31, 2018
Mary E. Wiss
Judge of the Superior Court

17a

Superior Court of California
County of San Francisco
________________________
JACOB RIMLER and GIOVANNI JONES,
Plaintiffs
vs.
POSTMATES, INC.,
Defendants
________________________
Case No. CGC-18-567868
CERTIFICATE OF
ELECTRONIC SERVICE
(CCP 1010.6(6) & CRC 2.260(g))
________________________
I, T. Michael Yuen, Clerk of the Superior Court
of the County of San Francisco, certify that I am not a
party to the within action.
On January 2, 2019, I electronically served the
ORDER DENYING DEFENDANT POSTMATES
INC.’S PETITION TO COMPEL ARBITRATION
AND STAY LITIGATION via File&ServeXpress® on
the recipients designated on the Transaction Receipt
located on the File&ServeXpress® website.
Dated: January 2, 2019
T. MICHAEL YUEN, Clerk
By:
Sean Kane Deputy Clerk

18a
APPENDIX D
Statutory Provisions Involved
9 U.S.C § 2. Validity, irrevocability, and enforcement of agreements to arbitrate
A written provision in any maritime transaction or a contract evidencing a transaction involving
commerce to settle by arbitration a controversy thereafter arising out of such contract or transaction, or the
refusal to perform the whole or any part thereof, or an
agreement in writing to submit to arbitration an existing controversy arising out of such a contract,
transaction or refusal, shall be valid, irrevocable, and
enforceable, save upon such grounds as exist at law or
in equity for the revocation of any contract.
(July 30, 1947, ch. 392, 61 Stat. 670.)
DERIVATION
Act Feb. 12, 1925, ch. 213, § 2, 43 Stat. 883.

19a
California Labor Code § 2699
(a) Notwithstanding any other provision of law, any
provision of this code that provides for a civil penalty
to be assessed and collected by the Labor and Workforce Development Agency or any of its departments,
divisions, commissions, boards, agencies, or employees, for a violation of this code, may, as an alternative,
be recovered through a civil action brought by an aggrieved employee on behalf of himself or herself and
other current or former employees pursuant to the
procedures specified in Section 2699.3.
(b) For purposes of this part, “person” has the same
meaning as defined in Section 18.
(c) For purposes of this part, “aggrieved employee”
means any person who was employed by the alleged
violator and against whom one or more of the alleged
violations was committed.
(d) For purposes of this part, “cure” means that the
employer abates each violation alleged by any aggrieved employee, the employer is in compliance with
the underlying statutes as specified in the notice required by this part, and any aggrieved employee is
made whole. A violation of paragraph (6) or (8) of subdivision (a) of Section 226 shall only be considered
cured upon a showing that the employer has provided
a fully compliant, itemized wage statement to each aggrieved employee for each pay period for the threeyear period prior to the date of the written notice sent
pursuant to paragraph (1) of subdivision (c) of Section
2699.3.
(e)
(1) For purposes of this part, whenever the Labor and Workforce Development Agency, or any
of its departments, divisions, commissions,

20a
boards, agencies, or employees, has discretion
to assess a civil penalty, a court is authorized to
exercise the same discretion, subject to the
same limitations and conditions, to assess a
civil penalty.
(2) In any action by an aggrieved employee
seeking recovery of a civil penalty available under subdivision (a) or (f), a court may award a
lesser amount than the maximum civil penalty
amount specified by this part if, based on the
facts and circumstances of the particular case,
to do otherwise would result in an award that
is unjust, arbitrary and oppressive, or confiscatory.
(f) For all provisions of this code except those for which
a civil penalty is specifically provided, there is established a civil penalty for a violation of these provisions, as follows:
(1) If, at the time of the alleged violation, the
person does not employ one or more employees,
the civil penalty is five hundred dollars ($500).
(2) If, at the time of the alleged violation, the
person employs one or more employees, the civil
penalty is one hundred dollars ($100) for each
aggrieved employee per pay period for the initial violation and two hundred dollars ($200)
for each aggrieved employee per pay period for
each subsequent violation.
(3) If the alleged violation is a failure to act by
the Labor and Workplace Development Agency,
or any of its departments, divisions, commissions, boards, agencies, or employees, there
shall be no civil penalty.
(g)

21a
(1) Except as provided in paragraph (2), an aggrieved employee may recover the civil penalty
described in subdivision (f) in a civil action pursuant to the procedures specified in Section
2699.3 filed on behalf of himself or herself and
other current or former employees against
whom one or more of the alleged violations was
committed. Any employee who prevails in any
action shall be entitled to an award of reasonable attorney’s fees and costs, including any filing fee paid pursuant to subparagraph (B) of
paragraph (1) of subdivision (a) or subparagraph (B) of paragraph (1) of subdivision (c) of
Section 2699.3. Nothing in this part shall operate to limit an employee’s right to pursue or recover other remedies available under state or
federal law, either separately or concurrently
with an action taken under this part.
(2) No action shall be brought under this part
for any violation of a posting, notice, agency reporting, or filing requirement of this code, except where the filing or reporting requirement
involves mandatory payroll or workplace injury
reporting.
(h) No action may be brought under this section by an
aggrieved employee if the agency or any of its departments, divisions, commissions, boards, agencies, or
employees, on the same facts and theories, cites a person within the timeframes set forth in Section 2699.3
for a violation of the same section or sections of the
Labor Code under which the aggrieved employee is attempting to recover a civil penalty on behalf of himself
or herself or others or initiates a proceeding pursuant
to Section 98.3.

22a
(i) Except as provided in subdivision (j), civil penalties
recovered by aggrieved employees shall be distributed
as follows: 75 percent to the Labor and Workforce Development Agency for enforcement of labor laws, including the administration of this part, and for education of employers and employees about their rights
and responsibilities under this code, to be continuously appropriated to supplement and not supplant
the funding to the agency for those purposes; and 25
percent to the aggrieved employees.
(j) Civil penalties recovered under paragraph (1) of
subdivision (f) shall be distributed to the Labor and
Workforce Development Agency for enforcement of labor laws, including the administration of this part,
and for education of employers and employees about
their rights and responsibilities under this code, to be
continuously appropriated to supplement and not supplant the funding to the agency for those purposes.
(k) Nothing contained in this part is intended to alter
or otherwise affect the exclusive remedy provided by
the workers’ compensation provisions of this code for
liability against an employer for the compensation for
any injury to or death of an employee arising out of
and in the course of employment.
(l)
(1) For cases filed on or after July 1, 2016, the
aggrieved employee or representative shall,
within 10 days following commencement of a
civil action pursuant to this part, provide the
Labor and Workforce Development Agency
with a file-stamped copy of the complaint that
includes the case number assigned by the court.
(2) The superior court shall review and approve
any settlement of any civil action filed pursuant

23a
to this part. The proposed settlement shall be
submitted to the agency at the same time that
it is submitted to the court.
(3) A copy of the superior court’s judgment in
any civil action filed pursuant to this part and
any other order in that action that either provides for or denies an award of civil penalties
under this code shall be submitted to the
agency within 10 days after entry of the judgment or order.
(4) Items required to be submitted to the Labor
and Workforce Development Agency under this
subdivision or to the Division of Occupational
Safety and Health pursuant to paragraph (4) of
subdivision (b) of Section 2699.3, shall be transmitted online through the same system established for the filing of notices and requests under subdivisions (a) and (c) of Section 2699.3.
(m) This section shall not apply to the recovery of administrative and civil penalties in connection with the
workers’ compensation law as contained in Division 1
(commencing with Section 50) and Division 4 (commencing with Section 3200), including, but not limited
to, Sections 129.5 and 132a.
(n) The agency or any of its departments, divisions,
commissions, boards, or agencies may promulgate
regulations to implement the provisions of this part.
(Amended by Stats. 2016, Ch. 31, Sec. 189. (SB 836)
Effective June 27, 2016.)

